                     OFFICE OF
              THE INSPECTOR GENERAL
                     U.S. NUCLEAR
                REGULATORY COMMISSION


                  Audit of NRC’s Contract Closeout Process

                      OIG-05-A-16        August 26, 2005




                        AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                           August 26, 2005




MEMORANDUM TO:              Luis A. Reyes
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum/RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S CONTRACT CLOSEOUT
                            PROCESS (OIG-05-A-16)


Attached is the Office of the Inspector General’s audit report titled, Audit of
NRC’s Contract Closeout Process.

The audit disclosed that the Division of Contracts generally does not close
expired contracts in accordance with Federal Acquisition Regulation required
time standards. This delay is the result of inadequate policies and
management’s use of an incorrect performance metric. The audit also
determined that there was approximately $6.4 million on 148 contracts awaiting
closeout as of September 30, 2004, that was not deobligated within 90 days of
contract expiration, as required by NRC policy. The delay in deobligating these
funds caused a delay in making the funds available for other agency priorities.

If you have any questions, please call me at 415-5915 or Steven Zane at
415-5912.

Attachment: As stated
Distribution

John T. Larkins, Executive Director, Advisory Committee on Reactor
Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
  Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
William N. Outlaw, Director of Communications
William N. Outlaw, Acting Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
  State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration, and Chief Information Officer, OEDO
William M. Dean, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Michael R. Johnson, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigation
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Paul H. Lohaus, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
                                             Audit of NRC’s Contract Closeout Process



EXECUTIVE SUMMARY

   BACKGROUND

         An expired contract is closed once it is both physically and
         administratively completed. The contract closeout process involves
         several administrative steps which can include, but are not limited
         to, settlement of subcontracts by the prime contractor; completion
         of a contract audit to determine final indirect and direct costs, if
         appropriate; payment of the final invoice; and deobligation of
         excess funds. The contract closeout process is subject to the
         requirements set forth in Federal Acquisition Regulation (FAR)
         4.804, “Closeout of contract files.”

   PURPOSE

         The objectives of this audit were to determine whether:

         •   The U.S. Nuclear Regulatory Commission’s (NRC) contract
             closeout policies and procedures adhere to applicable
             regulations,
         •   Management controls associated with the closeout process are
             adequate, and
         •   NRC complies with its own closeout procedures, with an
             emphasis on timeliness.


   RESULTS IN BRIEF

         The Division of Contracts (Contracts) within the Office of
         Administration generally does not close expired contracts in
         accordance with FAR required time standards. This delay is the
         result of inadequate policies and management’s use of an incorrect
         performance metric. Consequently, it becomes increasingly difficult
         to close long-outstanding contracts. A Contracts official
         represented that deobligation of funds within 90 days of expiration
         mitigates the effect of delayed contract closeouts. However, the
         audit determined that there was approximately $6.4 million on 148
         contracts awaiting closeout as of September 30, 2004, that was not
         deobligated within 90 days of contract expiration. The delay in
         deobligating these funds caused a delay in making the funds
         available for other agency priorities.




                                    i
                                          Audit of NRC’s Contract Closeout Process



     Addressing the areas identified in this report will improve the overall
     efficiency of the agency’s contract closeout process.


AGENCY COMMENTS

     At an August 17, 2005, exit conference with agency senior
     executives, NRC officials agreed with the report’s findings and
     recommendations and provided comments to clarify certain
     sections of the report. In response to those comments, we
     modified the report, as we deemed appropriate.




                                ii
                                           Audit of NRC’s Contract Closeout Process



ABBREVIATIONS AND ACRONYMS

       Contracts   Division of Contracts
       DAF         Division of Accounting and Finance
       EDO         Executive Director for Operations
       FAR         Federal Acquisition Regulation
       FTE         Full Time Equivalent
       MD          Management Directive
       NRC         U.S. Nuclear Regulatory Commission
       OCFO        Office of Chief Financial Officer
       OIG         Office of the Inspector General




                                iii
                         Audit of NRC’s Contract Closeout Process




[Page intentionally left blank.]




               iv
                                                                Audit of NRC’s Contract Closeout Process



TABLE OF CONTENTS

    EXECUTIVE SUMMARY............................................................................. i

    ABBREVIATIONS AND ACRONYMS ........................................................iii

    I.      BACKGROUND............................................................................... 1

    II.     PURPOSE....................................................................................... 2

    III.    FINDINGS ....................................................................................... 3

                 A.     NONCOMPLIANCE WITH FAR TIME STANDARDS ...................... 3

                 B.     DEOBLIGATIONS NOT TIMELY................................................. 8

    IV.     CONSOLIDATED LIST OF RECOMMENDATIONS...................... 12


    APPENDIX

            A.     SCOPE AND METHODOLOGY ............................................ 13




                                                  v
                         Audit of NRC’s Contract Closeout Process




[Page intentionally left blank.]




               vi
                                                              Audit of NRC’s Contract Closeout Process



I.      BACKGROUND

                   Contract Closeout Process

                   An expired contract is closed once it is both physically and
                   administratively completed. The contract closeout process involves
                   several administrative steps which can include, but are not limited
                   to, settlement of subcontracts by the prime contractor; completion
                   of a contract audit to determine final indirect and direct costs, if
                   appropriate; payment of the final invoice; and deobligation of
                   excess funds. The contract closeout process is subject to the
                   requirements set forth in FAR 4.804, “Closeout of contract files.”

                   As of September 30, 2004, NRC had 148 contracts and 41 other
                   procurement vehicles (Grants, Cooperative Agreements,
                   Interagency Agreements)1 in closeout status. The total of 189 is
                   less than the agency goal of maintaining an inventory of less than
                   275 contracts and other procurement vehicles awaiting closeout.

                                       Contracts Awaiting Closeout
                                        As of September 30, 2004
                                                          Average                        Available for
                                                          Time in                      Deobligation at
           Contract             No.       Obligated     Closeout (in                  Contract Expiration
             Type                       (in millions)      years)                       (in millions) 2
         Fixed Price                52            $43.3           3.1                                 $1.5
         Cost                        91                 219.4                5.5                          4.9
         Other                        5                    5.7               1.3                          (3)
         Total                     148                 $268.4                4.5                         $6.4

                   The total includes 52 fixed price contracts, 91 cost type contracts,
                   and 5 classified as “other,” which are time and materials and labor
                   hour contracts. This represents a significant improvement from the
                   829 contracts awaiting closeout in October 1991. Between
                   July 29, 2003 and September 30, 2004, the agency closed
                   62 expired contracts.

1
  The 41 other procurement vehicles are excluded from further discussion and analysis in this
report because FAR contract closeout time standards for closing out contracts do not specifically
apply to them.
2
 Amount excludes holdback and final invoice for work performed prior to contract expiration, but
paid after contract expiration.
3
    Actual amount of $1,700 is insignificant when converted to millions.


                                                   1
                                                Audit of NRC’s Contract Closeout Process




           Contracts develops and implements agency-wide contracting
           policies and procedures; directs and coordinates contracting
           activities; and provides advice, assistance, and oversight for
           program activities. Contracts is comprised of a procurement policy
           team, a procurement oversight team, and three contract
           management branches. The three contract management branches
           perform negotiation, award, administration, and closeout of agency
           contracts and other functions. Currently, Contracts staff totals
           32 full-time equivalents (FTE). During FY 2004, less than one FTE
           worked on contract closeout.


II.   PURPOSE

        The objectives of this audit were to determine whether:

           •   NRC’s contract closeout policies and procedures adhere to
               applicable regulations,

           •   Management controls associated with the closeout process are
               adequate, and

           •   NRC complies with its own closeout procedures, with an
               emphasis on timeliness.




                                      2
                                                 Audit of NRC’s Contract Closeout Process



III.   FINDINGS

            Contracts generally does not close expired contracts in accordance
            with FAR required time standards. This delay is the result of
            inadequate policies and management’s use of an incorrect
            performance metric. Consequently, it becomes increasingly difficult
            to close long-outstanding contracts. A Contracts official
            represented that deobligation of funds within 90 days of expiration
            mitigates the effect of delayed contract closeouts. However, the
            audit determined that there was approximately $6.4 million on
            148 contracts awaiting closeout as of September 30, 2004, that
            was not deobligated within 90 days of contract expiration. The
            delay in deobligating these funds caused a delay in making the
            funds available for other agency priorities.


       A. Noncompliance With FAR Time Standards

            As of September 30, 2004, approximately 77 percent of the
            agency’s expired contracts had not been closed in accordance with
            FAR required time standards that vary by contract type. Twenty-
            five of the expired contracts have been awaiting closeout for more
            than 5 years beyond the time standards specified by FAR. This
            delay is caused by:

               •   Inadequate Contracts policy, and

               •   Management’s use of an incorrect performance metric.

            Consequently, it becomes increasingly difficult to close long-
            outstanding contracts. For example, 5 years after a contract has
            expired: (i) many companies and the NRC will have experienced a
            loss of institutional memory, (ii) contract files and supporting
            documentation can be difficult to locate, and (iii) the contractor may
            go out of business or be acquired by another firm.

            Federal Acquisition Regulation Requirements

            The contract closeout process is subject to the requirements set
            forth in FAR 4.804-1. These requirements include time standards
            that vary by contract type.

               •   Firm-fixed-price contracts, other than those using simplified
                   acquisition procedures, should be closed within 6 months
                   after evidence is received of physical completion.



                                       3
                                     Audit of NRC’s Contract Closeout Process



   •   Cost type contracts that require settlement of indirect cost
       rates should be closed within 36 months of the month in
       which the contracting officer receives evidence of physical
       completion.

   •   Other contracts, including time and materials and labor hour,
       should be closed within 20 months of the month in which the
       contracting officer receives evidence of physical completion.

Noncompliance With Federal Acquisition Regulation
Requirements

In general, the agency is not in compliance with FAR.804-1. As of
September 30, 2004, 113 of 148 contracts in closeout status
(approximately 77 percent) were not in compliance with the FAR
contract closeout time standards. Analysis of the Contract
Closeout Inventory Report showed that 50 of 52 fixed price
contracts and 63 of 91 cost type contracts examined were not in
compliance with the FAR contract closeout time standards. The
analysis also showed that 33 contracts (1 fixed price, 27 cost type
and the 5 “other” which includes time and materials and labor
hour) were compliant with the FAR contract closeout time
standards. The following chart presents the combined results of
the analysis:



                  Adherence to FAR 4.804-1


                   Litigation:
                   2 contracts                     Compliant:
                       1%                         33 contracts
                                                      22%




           Noncompliant:
           113 contracts
                77%




                                 4
                                                                      Audit of NRC’s Contract Closeout Process



                           Additionally, an aging of the contracts that are in noncompliance
                           with FAR 4.804-1 demonstrated that, for fixed price contracts, 6 of
                           the noncompliant contracts were more than 5 years beyond the
                           time standards specified by FAR as were 19 of the cost contracts.
                           The contracts were aged separately according to type and then
                           aggregated by the number of years past their respective FAR
                           contract closeout time standards. The chart below presents the
                           combined results of the contract aging.


                                       Aging of Noncompliance with FAR 4.804-1

                      45
                                                         41
                      40


                      35
Number of Contracts




                      30

                                                                                 25                    25
                      25
                                  22

                      20


                      15


                      10


                       5


                       0
                                   1                    1-3                      3-5                  >5

                                             Years Outside FAR Contract Closeout Time Standards



                           Factors Causing Delays in Closing Contracts

                           Delays in closing out agency contracts are the result of inadequate
                           policy, management’s use of an incorrect performance metric, and
                           management priorities.

                                 Inadequate Contracts Policy

                           Contracts’ policies do not specifically include reference to the FAR
                           contract closeout time standards. Neither Management Directive
                           (MD) 11.1, “NRC Acquisition of Supplies and Services” nor
                           Contracts’ internal contract closeout policy, which is unsigned and
                           undated, address compliance with the FAR contract closeout time
                           standards for closing out contracts.




                                                         5
                                     Audit of NRC’s Contract Closeout Process



       Management’s Use of an Incorrect Performance Metric

Management focuses on one performance metric that does not
address FAR compliance. The current goal is to maintain the
closeout inventory below 275 contracts and other procurement
vehicles. The goal of one number that includes all procurement
vehicles in closeout status dates back to about October 1991 when
the agency faced a backlog of 829 expired but not closed contracts
and other procurement vehicles. However, concentration on such a
broad goal does not account for the potential situation where the
closeout inventory may exceed a given number, but none of the
contracts are outside the FAR contract closeout time standards.
The issue is not the number of procurement vehicles in closeout
status, but rather compliance with FAR contract closeout time
standards.

       Management Priorities

Contracts management does not consider the contract closeout
process a priority, as other activities, particularly contract awards,
are considered more pressing. During FY 2004, less than one FTE
worked on contract closeouts. Management expressed hope that
the success of recent efforts to hire additional staff will ease the
staffing shortages and enable them to devote more resources to
contract closeout.

Difficulties in Closing Long-Outstanding Contracts

The longer the time between contract expiration and closeout the
more difficult it becomes to complete the process. In particular, the
loss of institutional memory with turnover in both contractor and
Contracts personnel adds to the difficulty in closing old contracts.
Contract files may become more difficult to locate. Finally,
contractors may go out of business or be taken over by other
contractors, making closeout extremely difficult.

RECOMMENDATIONS

OIG recommends that the Executive Director for Operations (EDO):

1.     Revise MD 11.1 and the internal contract closeout policy to
       include FAR contract closeout time standards.




                           6
                                  Audit of NRC’s Contract Closeout Process



2.   Implement, sign, and date the internal contract closeout
     policy.

3.   Revise the performance metric to address compliance with
     FAR contract closeout time standards.




                        7
                                                                   Audit of NRC’s Contract Closeout Process



         B. Deobligations Not Timely

                  Funds totaling at least $6.4 million have not been deobligated
                  within 90 days of contract expiration as required by Contracts’
                  policy. Specifically, for 83 percent of the contracts awaiting
                  closeout as of September 30, 2004, Contracts has taken an
                  average of 322 days to reach the first step in the deobligation
                  process. Management’s inadequate monitoring of the process
                  results in substantial delays in NRC’s ability to use such funds for
                  other agency priorities.

                  Policy

                  Contracts’ policy regarding deobligation of funds remaining on
                  expired contracts is set forth in Part 11 of MD 11.1, “NRC
                  Acquisition of Supplies and Services.” MD 11.1 specifies that the
                  contract specialist is to perform all actions to administratively close
                  out contracts, including deobligation of any excess funds within
                  90 days of contract expiration. (Emphasis added.) Additionally,
                  Contracts’ internal policy states that modifications deobligating
                  excess funds should be completed within 90 calendar days from
                  the date of contract/task order expiration. The internal policy
                  further states that the contract specialist must complete the form
                  (known as the DAF form)4 that initiates the closeout process within
                  30 days of contract expiration. Finally, Contracts’ policy provides
                  that the deobligation of excess funds shall be given the “highest
                  absolute priority.”

                  Deobligation Time Significantly Exceeds Agency Policy

                  Contracts is not in compliance with MD 11.1 and its internal
                  closeout policy for deobligation of excess funds. Specifically, for
                  123 of 148 contracts in closeout status (83 percent) as of
                  September 30, 2004, Contracts did not deobligate excess funds
                  within 90 days of contract expiration. Because of data limitations,
                  the actual date of deobligation of excess funds was not readily
                  available. However, an analysis of the Contract Closeout Inventory




4
   The DAF, or Division of Accounting and Finance, form is used to notify the Division of Financial Services,
formerly the Division of Accounting and Finance, in the Office of the Chief Financial Officer, of the amount to
be deobligated on an expired contract. If the amount is $300 or less, the DAF form provides for
administrative deobligation of the funds. For amounts greater than $300, the DAF form serves as notice that
a deobligation modification will be submitted.




                                                      8
                                                                  Audit of NRC’s Contract Closeout Process



                  Report showed that the average elapsed days to complete the first
                  step of the deobligation process was 322 days, which far exceeds
                  the 90-day requirement to complete the entire deobligation
                  process5. For the remaining 25 contracts, the elapsed days
                  between the expiration date and the DAF date (the first step in the
                  deobligation process) is less than 90 days. There is no assurance,
                  however, that the deobligation was executed within the 90-day
                  requirement. The following chart demonstrates the degree of
                  compliance with Contracts’ policy.


                         Adherence to 90 Day Deobligation Policy

                                                                              DAF Date <= 90 Days:
                                                                                  25 contracts
                                                                                      17%




                              Noncompliant:
                              123 contracts
                                   83%




5
   The 322 days to complete the first step was calculated by comparing the contract expiration dates and the
DAF dates included in the Contract Closeout Inventory Report. Contracts management said that the DAF
Date on the Contract Closeout Inventory Report represents the date the contract specialist fills out the DAF
form and is the first step in the deobligation process.


                                                     9
                                                        Audit of NRC’s Contract Closeout Process



                                 Breakdown by contract type

As shown in the following chart, further analysis of the Contract
Closeout Inventory Report revealed that the agency exceeded the
90-day deobligation requirement on 41 of 52 fixed price contracts,
77 of 91 cost type contracts, and 5 of 5 “other” contracts.

                                  Compliance with 90 Day Deobligation Policy

                            90
                                                                 77
                            80
      Number of Contracts


                            70
                            60
                            50             41
                            40
                            30
                            20                          14
                                     11
                            10                                                         5
                             0
                                    Fixed Price         Cost Type                Other

                                           DAF Date <= 90 Days        Noncompliant



Inadequate Monitoring

Inadequate monitoring of the process causes delays in deobligation
of excess funds remaining on expired contracts. Contracts’
management does not have an established process for monitoring
compliance with the 90-day deobligation requirement. Each
quarter, on an informal basis, a contract specialist on the
Procurement Policy Team tries to remind contract specialists of
contracts that need deobligation forms completed. However, other
priorities may intervene and such notification does not always
occur.

Substantial Delays in Using Funds for Other Agency Purposes

Approximately $6.4 million was not deobligated within 90 days of
contract expiration, based on an analysis of the funds associated
with 123 of the 148 contracts listed on the September 30, 2004,
Contract Closeout Inventory Report. Contracts Management




                                                10
                                     Audit of NRC’s Contract Closeout Process



inadequately monitors the deobligation process, resulting in
substantial delays in the NRC’s ability to use such funds for other
agency priorities. In addition, NRC’s failure to deobligate funds
timely increases the agency’s vulnerability to fraud.

RECOMMENDATION

OIG recommends that the EDO:

4.    Develop and implement a process to monitor compliance
      with agency deobligation policy.




                          11
                                         Audit of NRC’s Contract Closeout Process



IV. CONSOLIDATED LIST OF RECOMMENDATIONS

        OIG recommends that the EDO:

             1.    Revise MD 11.1 and the internal contract closeout
                   policy to include FAR contract closeout time
                   standards.

             2.    Implement, sign, and date the internal contract
                   closeout policy.

             3.    Revise the performance metric to address compliance
                   with FAR contract closeout time standards.

             4.    Develop and implement a process to monitor
                   compliance with agency deobligation policy.




                               12
                                          Audit of NRC’s Contract Closeout Process


                                                                      Appendix A
SCOPE AND METHODOLOGY

       To accomplish the audit objectives, the OIG reviewed and analyzed
       pertinent laws, regulations, authoritative guidance and a prior
       relevant OIG report. In addition, OIG analyzed and compared
       NRC’s guidance with the FAR. OIG conducted interviews with
       selected NRC officials to:

          •   Gain an understanding of the agency’s contract
              closeout/deobligation process;

          •   Determine current issues, problems, known deficiencies; and

          •   Assess management controls.

       For benchmarking purposes, OIG contacted the Chief Acquisition
       Officers Council and the U.S. Agency for International Development
       to obtain information about contract closeout/deobligation best
       practices.

       OIG examined 148 contracts listed on Contracts’ Contract Closeout
       Inventory Report as of September 30, 2004. Using data from the
       reports, the auditors performed tests of compliance with the FAR
       and NRC acquisition requirements and analyzed the aging of
       contracts in closeout status.

       OIG conducted this audit in accordance with Generally Accepted
       Government Auditing Standards from September 2004 through
       June 2005.

       The major contributors to this report were Steven Zane, Team
       Leader; Kathleen Stetson, Audit Manager; and Steven Shea,
       Senior Auditor.




                                13
